March 21, 2008

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

KATHY AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

SUBJECT: Audit Report – Use of Existing Postal-Owned Space – Capping
         (Report Number SA-AR-08-007)

This report summarizes a series of four audit reports on the Use of Existing Postal-
Owned Space in the Pacific, Great Lakes, New York Metro, and Southeast Areas. We
performed these audits under project numbers 06YG024FA000 (Pacific),
07YG002CA000 (Great Lakes), 07YG005CA000 (New York Metro), and
07YG004CA000 (Southeast) in response to the U.S. Postal Service Transformation
Plan strategies to improve management of its real estate assets. We performed this
capping project under project number 08YG010SA000. See Appendix A for additional
information about this audit.

Conclusion

Procedures for Tracking and Reporting Underutilized and Vacant Space

The Pacific, Great Lakes, New York Metro, and Southeast Areas did not monitor or
actively track and report underutilized and vacant space. Further, neither the audit team
nor area management could identify all underutilized and vacant space in those areas.
As a result, there was no way to ensure the areas optimized the use of such space to
avoid future leasing costs. The Administrative Support Manual (ASM 13), Chapter 5,
Sections 513 and 517, requires installation heads to review the inventory of postal-
owned property at least annually to determine whether there are any properties for
which they have no foreseeable need and report it through the Facilities Database
(FDB) system. See Appendix B for our detailed analysis of this issue.

During the course of our audits in the four areas, we made the following
recommendations to address the issues we encountered:
Use of Existing Postal-Owned Space –                                                           SA-AR-08-007
 National Capping



We recommended the Vice President, Pacific Area Operations, and the Vice President,
Great Lakes Area Operations, in coordination with the Vice President, Facilities:

    •   Formalize and document procedures for the areas to identify, track, and report
        underutilized and vacant space to Facilities headquarters and to determine if
        there is vacant postal-owned space available prior to lease renewal.

We recommended the Vice President, Great Lakes Area Operations, in coordination
with the Vice President, Facilities:

    •   Develop formal procedures to communicate underutilized and vacant space
        information with appropriate area personnel and designate an individual within
        the area to be responsible for communicating with the district managers and
        Facilities Service Offices regarding the availability of underutilized and vacant
        space in the districts.

We recommended the Vice President, Southeast Area Operations, and Vice President,
New York Metro Area Operations, in coordination with the Vice President, Facilities:

    •   Develop consistent procedures for communication between installation heads,
        district managers, and Facilities Service Offices to identify and track underutilized
        and vacant space.

Management’s comments in response to the recommendations indicated they believed
the use of the FDB system will help them address some of the issues identified during
the audits. See Appendix B for our detailed analysis and a complete list of
recommendations and management’s comments by area.

We agree the FDB system can be an effective tool for the areas to track and report
underutilized and vacant space. However, we noted that the areas we visited were not
consistent regarding how they plan to utilize the FDB system.1 As a result, we
recommend the following.

Recommendation

We recommend the Vice President, Facilities:

    1. In coordination with the area vice presidents, require the areas to utilize the real
       estate module of the FDB system to review and report vacant and excess space
       information annually to ensure consistency in tracking and controlling vacant and
       excess space throughout the Postal Service.
1
 Great Lakes and Pacific Area management plan to use the FDB to review data while Southeast and New York
Metro Area management plan to use the FDB to report excess space. See Appendix B Audit Findings and
Recommendations for more details regarding management’s plans to utilize the FDB.




                                                      2
Use of Existing Postal-Owned Space –                                         SA-AR-08-007
 National Capping


Management’s Comments

Management agreed with the recommendation and stated that specific information from
the FDB annual certification automatically provides data to assist the recommended
requirement for facilities review. Annually, the Vice President, Retail Operations, sends
correspondence to area vice presidents emphasizing the importance of FDB
certification. The 2008 FDB certification ended February 22, 2008, and Facilities Realty
Asset Management (RAM) plans to complete the initial review of FDB certification
responses by May 31, 2008. In addition, Facilities has initiated an analysis of the
impact of the Flat Sequencing System on facilities in order to better identify excess
space, develop strategies to capture excess space, and capitalize on potential resultant
facility efficiencies. Management’s comments, in their entirety, are included in Appendix
D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to the recommendation and the corrective actions should resolve
the issue identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:    William P. Galligan
       Vice Presidents, Area Operations
       Katherine S. Banks




                                            3
Use of Existing Postal-Owned Space –                                           SA-AR-08-007
 National Capping


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Facilities is an enabling organization within the Postal Service whose primary mission is
to (1) provide quality real estate and facilities products and services to meet present and
future needs of postal organizations and (2) realize optimum value from facilities assets
and transactions. Facilities is headquartered in Arlington, Virginia, and there are eight
Facilities Service Offices (FSO) throughout the country.

The FSOs are responsible for the majority of the Postal Service’s facilities program
work. This includes planning, leasing, contracting, acquiring, designing, and
constructing facilities to house Postal Service operations. Facilities headquarters
provides organizational administration, policy and procedure development, and RAM
functions.

The RAM organization, located at Facilities headquarters, provides internal expertise to
identify, analyze, and maximize the return on underutilized and excess real property
assets the Postal Service controls. This organization generates income from real estate
assets by developing Postal Service real property to its highest and best use, out
leasing excess postal-owned space or subleasing excess-leased postal space to
governmental and public tenants, and selling excess real property.

The Postal Service uses the criteria in ASM 13, Chapter 5, Sections 513 and 517, to
identify underutilized and vacant space. These criteria stipulate that installation heads
review the inventory of postal-owned property at least annually to determine whether
there are any properties for which the Postal Service has no foreseeable need.
According to management, headquarters has requested the field to input information
regarding vacant and excess space to the FDB system. This provides a standard
format for annual reporting and a method for submitting additional excess space as it
becomes available.

RAM relies upon installation heads to report excess space through the “My Post Office”
application within the Postal Service’s intranet. RAM then contacts the installation
heads to obtain additional information about the reported space and determine whether
it fits the criteria for excess space. RAM initially downloaded the information from the
Facilities Management System (FMS) in the form of the Vacant Space Report and uses
it to determine workload and to prioritize their efforts to market the excess space.2

The Postal Service owned 8,494 facilities as of November 21, 2007. In addition, the
Postal Service leased 25,354 facilities totaling over 554 million square feet and spent
over $834 million on lease contracts annually.


2
    See Appendix C, Vacant Space per Area.




                                             4
Use of Existing Postal-Owned Space –                                                           SA-AR-08-007
 National Capping


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the Postal Service could realize
cost savings by optimizing underutilized and vacant space to avoid future leasing costs.
Specifically, we evaluated the procedures and systems the Postal Service uses to
identify underutilized and vacant space and whether it uses this information to
determine leasing needs. Our audit scope included underutilized, vacant, and leased
administrative space in the Pacific, Great Lakes, New York Metro, and Southeast Areas.
We chose to focus our review on administrative space because management can most
easily move the administrative departments to new locations.3 Through discussions
with Postal Service officials, we learned that retail units and processing and distribution
centers are often problematic to move due to service area concerns and the cost and
effort involved in conforming new facilities to meet Postal Service specifications.

To accomplish our objective, we reviewed documentation and applicable policies and
procedures. We also visited Postal Service facilities, interviewed managers and
employees, and examined any other material deemed necessary to accomplish our
audit objective. We conducted audit work in the Pacific, Great Lakes, New York Metro,
and Southeast Areas.

Within the four areas, we judgmentally selected the San Francisco, Northern Illinois,
Tennessee, Atlanta, New York, and Northern New Jersey Districts to visit. We chose
the San Francisco, Northern Illinois, and Tennessee Districts because they had the
greatest amount of underutilized/vacant administrative space in their respective areas.
We chose the Atlanta and Northern New Jersey Districts because of their proximity to
their respective FSOs, which could make them potential models for communication of
underutilized and/or vacant space in the districts to FSO management. We chose the
New York District because of its proximity to the area office and because the district
does not have any leased administrative office space.

We conducted this series of performance audits from February 2006 through March
2008 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. We
discussed our observations and conclusions with management officials and included
their comments where appropriate.

A previous OIG audit identified weaknesses in the computer system we relied on for
data.4 The audit team helped alleviate the risk of using data from that system by using

3
 See Appendix C, Vacant Space per Area.
4
 Audit Report – Review of the Facilities Management System for Windows (Report Number IS-AR-02-003, dated
February 22, 2002).




                                                      5
Use of Existing Postal-Owned Space –                                                                  SA-AR-08-007
 National Capping


the FDB to support the data we received from the Facilities Management System –
Windows (FMSWIN). We relied on computer-generated data from several Postal
Service financial systems (including FMSWIN5 and the FDB) after performing specific
internal control tests on these systems’ data including verifying locations of specific
Postal Service properties. For example, we verified different facilities’ data by talking to
management and comparing the data in the two computer systems. In addition,
management stated the Building section within the FDB Real Estate module lists five
data fields the FMS directly populated, and these fields should be the same in electronic
FMS and the FDB system.

PRIOR AUDIT COVERAGE

Our review of prior OIG audits did not identify audits or reviews conducted within the
past 3 years specifically related to the objective of this series of audits. However, we
did identify a Government Accountability Office (GAO) study directly related to use of a
national database for managing Postal Service facilities.

GAO’s report titled, Improvements in Data Would Strengthen Maintenance and
Alignment of Access to Retail Services (Report Number GAO-08-41, dated December
2007), revealed the FDB did not conform to the Postal Service’s goals or to leading
federal practices. In addition, major Postal Service components did not use the
database as a consolidated data source for managing their facilities. In response to the
GAO report recommendations, the Postal Service chose to establish internal controls
but not to track performance or trends. The Postal Service also agreed in principle to
prioritize maintenance but not to initiate a criteria-based approach to identify and close
unneeded retail facilities.




5
 During the course of the audit series, FMSWIN data was transitioned to the next generation facilities system,
electronic FMS (eFMS), on December 4, 2006.




                                                          6
Use of Existing Postal-Owned Space –                                         SA-AR-08-007
 National Capping



                                 APPENDIX B: DETAILED ANALYSIS

Procedures for Tracking and Reporting Underutilized and Vacant Space

The Pacific, Great Lakes, New York Metro, and Southeast Areas did not monitor or
actively track and report underutilized and vacant space. Further, neither the audit team
nor area management could identify all underutilized and vacant space in those areas.
As a result, there was no way to ensure the areas optimized the use of such space to
avoid future leasing costs. ASM 136 requires installation heads to review the inventory
of postal-owned property at least annually to determine whether there are any
properties for which they have no foreseeable need and report it through the FDB
system.

Although at the time of our audit we identified efforts by the areas and FSO
management to identify and utilize postal-owned vacant space, we determined they did
not formalize, communicate, or enforce policies and procedures outlined in the ASM to
ensure consistent tracking and reporting of such space. We believe the Postal Service
would benefit from using a consistent method — such as the FDB — to identify, track,
and report underutilized and vacant space. The Postal Service may be missing
opportunities to reduce future lease costs and realize long-term savings for the
organization when there are informal and inconsistent procedures to actively track
leased space and identify underutilized and vacant space. The table below provides a
summary of the findings, recommendations, and management’s comments by area.




6
    ASM 13, Chapter 5; Section 513, page 6; Section 517, page 10.




                                                          7
Use of Existing Postal-Owned Space –                                            SA-AR-08-007
 National Capping



                 AUDIT FINDINGS AND RECOMMENDATIONS BY AREA

Postal Service
   Area(s)            Findings and Recommendations               Management’s Comments

Pacific &          Finding: The areas do not have            Management agreed with the
Great Lakes        formal procedures in place to identify,   recommendation and stated they
                   track, and report vacant and              plan to comply with the FDB
                   underutilized space.                      headquarters coordinator’s directive
                   Recommendation: We recommended            that they review the data in every
                   the Vice President, Pacific Area          FDB maintenance module no less
                   Operations, and the Vice President,       than once each year. Management
                   Great Lakes Area Operations, in           also plans to begin Facility Condition
                   coordination with the Vice President,     Assessments during fiscal year (FY)
                   Facilities, formalize and document        2007, per a headquarters Facilities
                   procedures for the areas to identify,     directive, and anticipates this
                   track, and report underutilized and       process will enable them to receive
                   vacant space to Facilities                independent information on any
                   headquarters and to determine if there    underutilized or excess space in a
                   is vacant postal-owned space              facility.
                   available prior to lease renewal.

Pacific            Finding: An analysis of available         Management agreed with the
                   vacant space within the vicinity of the   recommendation and stated the
                   leased Pacific FSO revealed sufficient    EPC developer is currently in
                   space within the San Francisco            discussions with RAM to purchase
                   Embarcadero Postal Center (EPC) to        the EPC. If the EPC sale proved
                   move the FSO and avoid future             unsuccessful, the FSO would
                   leasing costs. Recommendation: We         relocate after appropriate cost-
                   recommended the Vice President,           benefit analysis.
                   Pacific Area Operations, and the Vice
                   President, Facilities, move the Pacific
                   FSO to the EPC and sublease the
                   FSO to avoid future leasing costs,
                   thus saving $500,821 over the
                   remaining life of the lease.

Pacific            Finding: We found discrepancies in        Management agreed with the
                   reported vacancy status between the       recommendation and outlined a
                   information presented in the area’s       procedure to update the Excess
                   Excess Space Report and the vacant        Space Report. Management will
                   space information contained in the        update the report with information
                   FDB. Recommendation: We                   from building inspections, reviewed
                   recommended the Vice President,           with area leadership quarterly and



                                              8
Use of Existing Postal-Owned Space –                                              SA-AR-08-007
 National Capping


Postal Service
   Area(s)           Findings and Recommendations                   Management’s Comments
                   Pacific Area Operations, and the Vice      uploaded to the FSO website, which
                   President, Facilities, establish written   is linked to the area website.
                   procedures to regularly update the
                   Excess Space Report.

Great Lakes        Finding: Area management did not           Management agreed with the
                   communicate and enforce existing           recommendation and stated that
                   annual requirements, per ASM 13, to        Area Budget and the FSO were in
                   review and identify any excess postal-     the process of obtaining extracts and
                   owned property with appropriate area       reports from FDB and eFMS for
                   and facilities personnel.                  vacant space and excess land. The
                   Recommendation: We recommended             information will be used to produce a
                   the Vice President, Great Lakes Area       report that will be shared with Great
                   Operations, in coordination with the       Lakes district offices, an area
                   Vice President, Facilities, develop        workgroup, and the FSO
                   formal procedures to communicate           periodically, at a predetermined
                   underutilized and vacant space             timeframe, by the end of FY 2007.
                   information with appropriate area          Management also stated the Area
                   personnel and designate an individual      Finance Manager is the Area Vice
                   within the area to be responsible for      President’s liaison with the district
                   communicating with the District            managers and FSO. The Area
                   Managers and FSO regarding the             Finance Manager will ensure that an
                   availability of underutilized and vacant   annual report is forwarded to the
                   space in the districts.                    Area Vice President for her review
                                                              and will advise her of any necessary
                                                              action.

Southeast &        Finding: The areas did not formalize,      Management agreed with the
New York           communicate, or enforce policies and       recommendation and stated that
Metro              procedures outlined in the ASM to          installation heads will be reminded
                   ensure consistent tracking and             semiannually of their responsibility to
                   reporting of vacant and underutilized      report excess space, building, and
                   space. Recommendation: We                  land utilization using the FDB
                   recommended the Vice President,            program.
                   Southeast Area Operations, and Vice
                   President, New York Metro Area
                   Operations, in coordination with the
                   Vice President, Facilities, develop
                   consistent procedures for
                   communication between installation
                   heads, district managers, and FSOs to
                   identify and track underutilized and
                   vacant space.



                                               9
Use of Existing Postal-Owned Space –                                                   SA-AR-08-007
 National Capping


    APPENDIX C: VACANT AND LEASED ADMINISTRATIVE SPACE PER AREA

                                  Vacant Space per Area*

                                                         Square
                                         Area             Feet

                                  Pacific                  77,258


                                  Great Lakes              51,410


                                  Southeast                53,771


                                  New York Metro            3,958


                  *      Per the Vacant Space Report obtained from the FMS portal.
                  Excludes storage space, restroom vacancies, and space marked unrentable.



                       Leased Administrative Space per Area

                                                Interior
                                                Square        Annual
                                  Area            Feet         Rent
                           Pacific              776,030 $1,754,200

                           Great Lakes          125,138 $1,737,124

                           Southeast            536,172 $5,059,432

                           New York Metro       353,645 $3,596,188




                                                 10
Use of Existing Postal-Owned Space –                       SA-AR-08-007
 National Capping


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                       11
Use of Existing Postal-Owned Space –        SA-AR-08-007
 National Capping




                                       12
